No. ______

In the

Supreme Court of the United States
October Term, 2019
KENNETH BLUEW, Petitioner
v.
CONNIE HORTON, WARDEN, Respondent
__________

CERTIFICATE OF SERVICE
Margaret Sind Raben, being duly sworn deposes and says that on August 13,
2020 she caused to be served a copy of: PETITION FOR WRIT OF CERTIORARI,
upon Andrea M. Christensen-Brown, Michigan Department of Attorney General Criminal Appellate Division, 525 W. Ottawa, PO Box 30217, Lansing, MI 48909 via
email and by placing a copy of said document(s) in an envelope correctly addressed
to said addressee(s) and placing in the United States Mails with proper postage
affixed thereon.

/s/Margaret Sind Raben

